No.

IN THE
SUPREME COURT OF THE UNITED STATES
8TH JUDICIAL CIRCUIT

ABDUR-RASHID MUHAMMAD 73537

— PETITIONER

(Your Name)
VS.
STATE OF NEBRASKA

— RESPONDENT(S)

PROOF OF SERVICE

I) ABDUR RASHID MUHAMMAD #73537________ (do swear or declare that on this date,
------- ---------------------------- , 20as required by Supreme Court Rule 29 1 have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
NEBRASKA ATTORNEY GENERAL 2115 STATE CAPITOL LINCOLN,SNE6g8509

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

,20c2£

(Signature)
NOTARY:

A GENERAL NOTARY-State of Nebraska
■
TOM PFEIFER
ggpalgai MyComm. Exp. March 10,2021

X

DATE: 8 T '2o~^s>

NO.

IN THE
SUPREME COURT OF THE UNITED STATES
8TH JUDICIAL CIRCUIT

ABDUR-RASHID MUHAMMAD #73537- PETITIONER
VS.
STATE OF NEBRASKA- RESPONDENT(S)
PROOF OF SERVICE
I, ABDUR-RASHID MUHAMMAD #73537, DO SWEAR OR DECLARE THAT ON THIS DATE, 08/27/2020
AS REQUIRED BY SUPREME COURT RULE 29 I HAVE SERVED THE ENCLOSED MOTION FOR LEAVE
TO PROCEED IN FORMA PAUPERIS AND PETITION FOR A WRIT OF CERTIORARI ON EACH PARTY
TO THE ABOVE PROCEEDING OR THAT PARTY'S COUNSEL, AND ON EVERY OTHER PERSON REQUIRED
TO BE SERVED, BY DEPOSITING AN ENVELOPE CONTAINING THE ABOVE DOCUMENTS IN THE UNITED
STATES MAIL PROPERLY ADDRESSED TO EACH OF THEM AND WITH FIRST-CLASS POSTAGE PREPAID,
OR BY DELIVERY TO A THIRD-PARTY COMMERCIAL CARRIER FOR DELIVERY WITHIN 3 CALENDAR
DAYS. THE NAMES AND ADDRESSES OF THOSE SERVED ARE AS FOLLOWS: NEBRASKA ATTORNEY
GENERAL 2115 STATE CAPITOL LINCOLN, NE 68509.

I DECLARE UNDER PENALTY OF PERJURY THAT THE FOREGOING IS TRUE AND CORRECT.
EXECUTED ON

(SIGNATURE)

NOTARY:

A GENERAL NOTARY • State ot Nebraska
!|
TOM PFEIFER
My Comm. Exp. March tO, 2021

X

'TSw, Pfeifer

DATE: $

NO.

IN THE
SUPREME COURT OF THE UNITED STATES
8TH JUDICIAL CIRCUIT

ABDUR-RASHID MUHAMMAD #73537- PETITIONER
VS.
STATE OF NEBRASKA- RESPONDENT(S)
PROOF OF SERVICE
I, ABDUR-RASHID MUHAMMAD #73537, DO SWEAR OR DECLARE THAT ON THIS DATE, 08/27/2020
AS REQUIRED BY SUPREME COURT RULE 29 I HAVE SERVED THE ENCLOSED MOTION FOR LEAVE
10 PROCEED IN FORMA PAUPERIS AND PETITION FOR A WRIT OF CERTIORARI ON EACH PARTY
TO THE ABOVE PROCEEDING OR THAT PARTY'S COUNSEL, AND ON EVERY OTHER PERSON REQUIRED
TO BE SERVED, BY DEPOSITING AN ENVELOPE CONTAINING THE ABOVE DOCUMENTS IN THE UNITED
STATES MATT. PROPERLY ADDRESSED TO EACH OF THEM AND WITH FIRST-CLASS POSTAGE PREPAID,
OR BY DELIVERY TO A THIRD-PARTY COMMERCIAL CARRIER FOR DELIVERY WITHIN 3 CALENDAR
DAYS. THE NAMES AND ADDRESSES OF THOSE SERVED ARE AS FOLLOWS: NEBRASKA ATTORNEY
GENERAL 2115 STATE CAPITOL LINCOLN, NE 68509.

I DECLARE UNDER PENALTY OF PERJURY THAT THE FOREGOING IS TRUE AND CORRECT.
EXECUTED ON

,20

(SIGNATURE)

NOTARY:

A GENERAL NOTARY- State of Nebraska
If
TOM PFEIFER
MyComtTi. Exp^jflarcMO^O^,

X

"T(JYV)

DATE: % 11\Lel&

RECEIVED
SEP - 9 2020
OFFICE OF THE CLERK
SUPREME court ns

